No. 20-8363

In the Supreme Court of the United States

OUTHDORM ROS, Petitioner,
v.
PEOPLE OF THE STATE OF CALIFORNIA, Respondent.

CERTIFICATE

OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition contains 4,406 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Dated: October 15, 2021
Respectfully submitted,
ROB BONTA
Attorney General of California
/S/ MATTHEW MULFORD
MATTHEW MULFORD
Deputy Attorney General
*Counsel of Record
Counsel for Respondent
SD2021801694
83088762.docx

